           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



   PERFORMANCE INDICATOR AUDIT:
      OVERALL SERVICE RATING


   October 2005   A-15-05-15118




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   October 4, 2005                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Overall Service Rating (A-15-05-15118)

        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s (SSA) performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of one of the performance indicators PwC reviewed. For the performance
        indicator included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over the
               data generation, calculation, and reporting processes for the specific
               performance indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and are not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year 2004
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicator:

           •   Percent of people who do business with SSA rating overall services as
               “excellent,” “very good,” or “good.”

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.



                                                   S
                                                   Patrick P. O’Carroll, Jr.

        Attachment
MEMORANDUM

Date:     September 15, 2005

To:       Inspector General

From:     PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: Overall Service Rating (A-15-05-15118)

OBJECTIVE
The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicator included in this audit,
our objectives were to:

          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.

          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration.4

          3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
             2004 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.


1
 Public Law Number (Pub. L. No.) 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5
United States Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
    GAO-03-273G Assessing Reliability of Computer Processed Data, October 2002, p. 3.


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                 1
BACKGROUND
We audited the following performance indicator as stated in the SSA FY 2004 PAR:

                   Performance Indicator                 FY 2004 Goal           FY 2004 Reported
                                                                                     Results
    Percent of people who do business with
    SSA rating the overall service as                         83%                    84.2%
    “excellent,” “very good,” or “good”

SSA provides a range of services to the general public including the issuance of social
security cards, and payment of retirement and long-term disability benefits. The general
public has a variety of service options for obtaining information and conducting business
with SSA. These options consist of customers visiting and calling local field and hearing
offices, calling SSA’s national toll-free 800 number, and using the website. The majority
of SSA's customers prefer to conduct business by telephone, and many choose to deal
with 1 of 1,336 local field offices and 140 hearing offices.

This performance indicator is linked to SSA’s strategic objective to “Improve service with
technology,”5 which is linked to SSA’s strategic goal “To deliver high-quality, citizen-
centered Service.”6 This strategic goal is linked to one of the five government-wide
goals on the President’s Management Agenda, “Expanded Electronic Government”7
which addresses all Government agencies’ ability to simplify the delivery of high-quality
service while reducing the cost of delivering those services.

To assess its progress in meeting this objective and goal, SSA’s Office of Quality
Assurance and Performance Assessment (OQA) conducts a series of tracking surveys
to measure a customer’s satisfaction with his or her last contact with SSA. SSA
conducts three surveys: the 800-Number Caller Survey, the Field Office (FO) Caller
Survey, and the Office Visitor Survey. OQA uses a 6-point rating scale ranging from
“excellent” to “very poor.” To report the final overall service satisfaction, OQA combines
the three customer satisfaction surveys, weighting each survey by the customer
universe it represents.

800-Number Caller Survey

The 800-Number Caller Survey is conducted with a sample of individuals who received
customer service using the 800-number during the month of March. When a customer
calls the toll free number, the Automatic Number Identifier (ANI) system collects data
about the call, i.e., phone number, date, time, and duration. The sample is randomly

5
    Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 51.
6
    Ibid, p. 45.
7
    http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf.


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                 2
drawn on a biweekly basis from data supplied by the telephone company over the
course of the sample month. OQA excludes calls from blocked numbers, businesses,
pay phones, or other locations where the customer is not identifiable. OQA contracts
with a firm to call the customer, conduct the survey, and compile the responses. OQA
then analyzes and reports the results.

Field Office Caller Survey

The FO Caller Survey is conducted with a sample of individuals who called 1 of 52
randomly selected FOs8 during the month of April. During the survey period, an OQA
contractor installs caller-ID equipment in sampled FOs on its main incoming phone
lines. Each FO’s caller-ID system records the date and time of contact, length of call,
and phone number of the caller. From the caller population accumulated, OQA makes
a biweekly, random selection of callers over the course of the sample month. OQA
excludes calls from blocked numbers, businesses, pay phones, or other locations where
the customer is not identifiable. OQA contracts with a firm to call the customer, conduct
the survey, and compile the responses. OQA then analyzes and reports the results.

Office Visitor Survey

The Office Visitor Survey is conducted with a sample of individuals who visit either 1 of
52 FOs or 13 Hearing Offices (HO) randomly selected over the course of an 8-week
period from July-September. FOs are selected by region, with all 10 SSA regions
represented. Each sampled office participates for 1 week of the sample period. The
FO or HO records each customer’s name, address, telephone number, and reason for
the visit and forwards this information electronically to OQA daily. Every 2 to 3 days,
OQA selects a random sample of customers to participate in the survey. A contractor
mails the survey to the selected customers. Customers are asked to return the survey
directly to OQA, which analyzes and reports the results.

For additional detail on the surveys and reporting process, refer to the flowcharts in
Appendix C.

RESULTS OF REVIEW
Overall, we found that the statistical methods for sample selection and estimation used
by SSA were consistent with sound statistical theory. We were able to recalculate and
verify SSA’s overall customer satisfaction estimated percentage using the weights
provided by SSA.

SSA, however, did not have adequate internal controls in the documentation of
processes and potential bias existed in the customer satisfaction survey’s sample



8
    FY 2004 resulted in 52 FOs being sampled. The actual number of FOs sampled varies each year.


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                3
selection process, response rate and combination of survey instruments.9
Furthermore, SSA could improve the performance indicator’s linkage to the strategic
objective to comply with GPRA and Office of Management and Budget (OMB) guidance
and could improve the meaningfulness of the performance indicator. Finally, the PAR
did not accurately disclose the data trend and description of the data sources.

Internal Controls

Although we were able to recalculate and verify the results reported in the PAR, we
found that SSA did not have sufficient and current documentation to enable an efficient
review of the performance indicator results. We found several of the calculations that
supported the statistical estimates were not completely and accurately documented.
We further found several discrepancies within the documentation that were
subsequently found to be immaterial or resolved by SSA.

In addition, SSA had used the previous Office of the Inspector General audit report10
(conducted for FY 2002) as documentation of the survey sampling methodology. The
absence of “…well-defined documentation processes that contain an audit trail,
verifiable results, and specify document retention periods so that someone not
connected with the procedures can understand the assessment process”11 did not
comply with standards defined by OMB Circular A-123, Management’s Responsibility
for Internal Control.

Also, in the sample selection process, a potential bias existed as a result of the surveys
being conducted over a limited time period. SSA selected the samples from a limited
time period (e.g. 1 or 2 months) and then projected the results to the entire year. The
results from the time period not sampled may have been systematically different from
the results of the time period sampled. SSA did not provide analysis to substantiate the
similarities and differences between sampled and non-sampled time periods.

Additionally, in the survey response rate, a potential bias existed due to nonresponse.
Nonresponse in surveys can often lead to biased results if respondents and
nonrespondents have different responses on customer satisfaction. SSA could not



9
  OQA uses the ANI data furnished by SSA’s 800 number service provider for Agency management
information purposes as the sampling frame for the survey. The scope of our audit did not include a
review of this computer system. Accordingly, the second audit objective, data reliability as defined by
GAO, did not apply to this indicator as computer data was not processed by SSA to support the reported
results. The first audit objective, internal controls, includes the results of our review of internal controls
over manually processed data.
10
     Performance Indicator Audit: Customer Satisfaction (A-02-02-11082) dated February 4, 2003.
11
   Revision to OMB Circular A-123, Management Responsibility for Internal Control, December 21, 2004,
p. 6.



Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                              4
provide documentation on an analysis of the response rate from the different surveys.12
Typically, organizations will periodically evaluate the effect of non-response, such as
statistical tests between respondents and nonrespondents for characteristics believed to
be correlated with customer satisfaction.

A potential measurement error existed by combining the three survey responses to
reach an overall conclusion. Each survey asked the question as:

         “Overall, how would you rate the service you received the day you called Social
          Security's 800 number?” (800 callers)
         “Overall, how would you rate the telephone service you received that day?”
          (FO callers)
         “Overall, how would you rate Social Security's service for your recent office visit?”
          (FO/HO visitors).

We understand that the questions on the surveys were similar, but were modified to
reflect the nature of the experience and reworded to properly phrase questions for each
of the three different ways that customers receive service. Despite the same question
being asked in each survey, differences in each survey instrument existed that include:

         Questions that existed on one survey, but not the others; and
         Different question ordering on each of the surveys.

Modifying the question order and wording on surveys are techniques often used to
reduce order bias. For these surveys, however, we were informed that these
differences were not designed to mitigate bias, but to gather additional information for
each survey type. As a result, the differences in the wording of the questions, prior to
the customer satisfaction question, may have led to potential bias in the combined
survey response. Quantification of such potential bias would require a separate study.
To minimize measurement errors, the survey designs should be as similar as possible.

Accuracy of PAR Presentation and Disclosure

We found the trend was not accurately described in the PAR. The trend description
indicated that this was “…the third year in a row that the public’s perception of SSA’s
service reflected a statistically significant improvement.”13 The actual results, however,
were similar in comparison to the prior year and did not represent a statistically
significant improvement.



12
  An SSA official confirmed that “Non-response analysis related to the subject surveys has not been
conducted within the last three years.”
13
     Social Security Administration Performance and Accountability Report Fiscal Year 2004, p. 54.



Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                   5
Additionally, the FY 2004 PAR did not accurately disclose the current description of the
data source used to report the indicator results. In prior years, the “Interaction Tracking
System”14 was used to describe the data accumulation process, however, SSA replaced
this term with “Service Satisfaction Survey.” In addition, the PAR did not disclose the
underlying data sources for the three types of customer interactions (i.e., 800 number
callers, FO callers, and FO/HO visitors) used to support the performance indicator
calculation.

Performance Indicator Meaningfulness

The performance indicator did not clearly support SSA’s strategic objective "Improve
service with technology," although it does support the strategic goal “to deliver high-
quality, citizen-centered service.” The indicator measured the service satisfaction of
SSA’s customers who called the 800 number, called the FO, or visited a FO or HO.
However, associated technology improvements, e.g. the use of the internet or
investments in technology, were not identified. GPRA requires “…performance
indicators [which are linked to strategic objectives and goals] to be used in measuring or
assessing the relevant outputs, service levels, and outcomes of each program
activity,”15 and OMB’s Performance Assessment Rating Tool (PART) guidance16
requires “…specific, easily understood program outcome goals that directly and
meaningfully support the program's mission and purpose.”17

SSA can further improve the meaningfulness of the results reported for this
performance indicator. The overall credibility of performance results would be
enhanced by disclosing participation and results achieved in Governmentwide surveys
on customer satisfaction that compare results across Federal Government agencies.

CONCLUSION AND RECOMMENDATIONS
We recommend SSA:

       1. Improve documentation of policies and procedures. The documentation should
          be complete and accurate to define all of the steps ultimately used to report
          performance results in the PAR. Estimates and calculations used to generate

14
     Ibid, p. 54.
15
  Pub. L. No. 103-62, 107 Stat. 285 (Section 4. Annual Performance Plans and Reports, Sec. 1115.
Performance plans, (a) (4)).
16
  Compliance with OMB standards has been reviewed as part of this audit. Social Security
Administration Performance and Accountability Report Fiscal Year 2004, p. 82, states that “The
performance data presented in this report are in accordance with the guidance provided by the Office of
Management and Budget (OMB).”
17
  http://www.whitehouse.gov/omb/budintegration/part_assessing2004.html, Instructions for the Program
Assessment Rating Tool (Section - II. Strategic Planning, Elements of Yes Answer).


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                       6
       the survey results should be clearly documented and supported to readily enable
       an independent assessment. SSA management should annually update and
       take ownership of the documentation in compliance with OMB A-123 guidance.

   2. Periodically assess the impact of performing the surveys over limited time
      periods, and consider performing abbreviated surveys on smaller samples at
      other times during the year.

   3. Consider the effect of nonresponse, through statistical tests between
      respondents and nonrespondents for characteristics believed to be correlated
      with customer satisfaction. We recognize that SSA has found it difficult to
      identify a comparable population to determine the effect of nonresponse,
      however, efforts should continue to be made to examine the characteristics of the
      respondents and representation of the population since segments of the
      population lacking coverage may be a result of nonresponse. Model-based
      techniques using information gathered on respondents may be helpful to assess
      the impact of nonresponse.

   4. To minimize measurement errors, design each survey to be as similar as
      possible.

   5. Implement controls to ensure the accuracy of the PAR’s data sources disclosed
      to support the performance results.

   6. Provide a direct linkage of the performance indicator to the Agency’s strategic
      goals and objectives. SSA should expressly comply with criteria established by
      GPRA and OMB PART guidance, which requires performance indicators be
      linked to the Agency’s relevant strategic goal and objective. If a direct linkage
      can not be supported, the Agency should disclose the basis for selecting the
      indicator and why it diverts from established criteria. SSA should further consider
      indicators which include satisfaction from internet users and other technology
      investments that support the strategic objective.

   7. Provide a linkage to supplementary information in the PAR to increase the
      credibility of the survey results by comparison to other Federal agencies, e.g. the
      American Consumer Satisfaction Index.

AGENCY COMMENTS

SSA agreed with four recommendations (numbers 1, 4, 5 and 7), agreed in part with two
recommendations (numbers 3 and 6), and disagreed with recommendation 2. SSA
stated it agreed with recommendation 3; however, SSA stated there is no meaningful
data available regarding characteristics of the sample population that could be
correlated to customer satisfaction. SSA stated it agreed in part with recommendation
6, and agreed to enhance the linkage between the performance measures that relate to


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                     7
technology and the strategic objective. However, SSA believes that the reference to
OMB PART should be removed, since the performance indicator was not a PART
measure. For recommendation 2, SSA disagreed and stated that the benefit of
conducting surveys more frequently is not sufficient to justify the time and expense to
administer the surveys. The text of SSA’s comments can be found in Appendix E.

PWC RESPONSE
In response to recommendation 2, we believe that if results begin to fluctuate, SSA
should conduct surveys more frequently, and consider performing abbreviated surveys
on smaller samples.

For recommendation 3, although the Agency agreed with this recommendation, it did
state that there is no meaningful data available regarding characteristics of the sample
population that could be correlated to customer satisfaction. We continue to
recommend that SSA consider the effect of nonresponse for characteristics believed to
be correlated with customer satisfaction.

In response to recommendation 6, SSA did agree to enhance the linkage between the
performance measures that relate to technology and the strategic objective. However,
we disagree that the reference to OMB PART guidance should be removed. OMB
PART guidance was intended to improve the overall reporting of performance
measurement data. As such, we continue to believe that the OMB PART guidance
should be taken into consideration when developing the linkage of the Agency's
performance indicators, and the corresponding strategic goals and objectives.




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                        8
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Statistical Methodology

APPENDIX E – Agency Comments




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)
                                                                      Appendix A
Acronyms
 ANI           Automatic Number Identifier
 FO            Field Office
 FY            Fiscal Year
 GI            General Inquires
 GPRA          Government Performance and Results Act
 HO            Hearing Office
 OMB           Office of Management and Budget
 OQA           Office of Quality Assurance and Performance Assessment
 OSM           Office of Strategic Management
 OSSAS         Office of Statistics and Special Areas
 OTSO          Office of Telecommunications and Systems Operations
 PAR           Performance and Accountability Report
 PART          (OMB’s) Performance Assessment Rating Tool
 Pub. L. No.   Public Law Number
 SSA           Social Security Administration
 U.S.C.        United States Code




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General and other reports related to SSA GPRA performance and related
       information systems.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of key performance indicators to ensure
       mathematical accuracy.
   •   For those indicators with results that SSA determined using computerized data,
       we assessed the completeness and accuracy of that data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators appear to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards.



Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                   B-1
In addition to the steps above, we specifically performed the following to test the
indicator included in this report:

        •   Assessed the sample selection methodology, including the creation of the
            sample frame.
        •   Recalculated the survey results, including the survey weights, for each of the
            three types of performance surveys.
        •   Recalculated the combined survey estimate for the SSA customer satisfaction
            performance.
        •   Tested key controls over the Blaise1 system used to calculate the Office
            Visitor Survey.




1
  Blaise is software that SSA uses to create a database of survey results by imputing the mail survey
results for each individual mailed response received. The data is then converted to ASCII and then
exported to Excel where the data is parsed and the calculations performed.


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                     B-2
                                                                                                                                                                                                                               Appendix C
Flowchart of Customer Satisfaction Surveys
                                                                                                          C u s to m e r S e r v ic e S u r v e y
                                                                                                               8 0 0 N u m b e r C a lle r

                                                                                                                                                                          O S S A S s e le c t s                                                               O S S A S s e le c ts a
                                                                           A N I s y s te m                                                                            c o m p le te d c a lls ( 1 )                 O S S A S s e le c t s                   r a n d o m s a m p le o f
                                C u s t o m e r c a lls                                                              M C I fu r n is h e s S S A                                                                                                          c a lle r s t o p a r t ic ip a t e in
                                                                       re c o rd s c u s to m e r                                                                         w it h in s a m p lin g                    e lig ib le c a lls ( 2 )
                                 1 -8 0 0 n u m b e r                                                                   w ith A N I d a ta                                                                                                                              s u rv e y
                                                                                 d a ta                                                                               p e r io d fr o m A N I d a ta




                            O S S A S s e n d s e le c tr o n ic                                                         C o n t r a c t o r c o m p ile s
                                                                                                                                                                               O S S A S a p p lie s                        O S S A S c a lc u la te s
                             f ile w it h p h o n e n u m b e r ,             C o n tra c to r                          re s p o n s e s a n d s e n d s
                                                                                                                                                                                w e ig h ts to th e                           th e fin a l s u r v e y
                                  d a t e , t im e o f c a ll t o       a d m in is t e r s s u r v e y                          to O S S A S
                                                                                                                                                                                 s a m p le d a ta                                   r e s u lt
                                          c o n tra c to r                                                                     e le c t r o n ic a lly




                                                                                                           O S S A S w r ite s a n d
                                                                                                            p u b lis h e s r e p o r t
                                                                    S u rv e y re p o rt                         o n s u rv e y                          O S S A S d is t r ib u t e s
                                                                                                                                                                                                            S u r v e y c o m p le te
                                                                                                                                                                 re p o rt

                                O S S A S a n a ly z e s
                                       r e s u lts
                                                                     G P R A p e rfo rm a n c e              O S S A S c o m b in e s
                                                                            in d ic a t o r                                                                  O S S A S re p o rts
                                                                                                           r e s u lts fr o m s u r v e y s
                                                                                                                                                                  c u s to m e r                       O S M p u b lis h e s                       P e rfo rm a n c e
                                                                                                                  w e ig h te d b y
                                                                                                                                                              s a tis fa c tio n to                     G P R A r e s u lts                      In d ic a to r r e s u lts
                                                                                                             c u s t o m e r u n iv e r s e
                                                                                                                                                                     O S M




1
    A completed call is a call where the customer has selected to speak with an SSA representative or selected an option from the automated menu.

2
 An eligible call is one that has been made between 7 a.m. and 7 p.m. during the caller’s local time, came from a phone number that made fewer than 100 calls to SSA that day,
and was made during the sample period.




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                                                                                                                                                                               C-1
Customer Service Survey – 800-Number Caller:

   •   The customer calls Social Security Administration’s (SSA) 800-
       Number.
   •   The Automatic Number Identifier (ANI) system records the customer
       data.
   •   MCI furnishes SSA with the ANI data.
   •   Office of Statistics and Special Areas (OSSAS) selects the
       completed calls within the sampling period from the ANI data. A
       completed call is a call where the customer has selected to speak
       with a SSA representative or selected an option from the automated
       menu.
   •   OSSAS selects the eligible calls from the completed calls. An
       eligible call is one that has been made between 7 a.m. and 7 p.m.
       during the caller’s local time, came from a phone number that made
       fewer than 100 calls to SSA that day, and was made during the
       sample period.
   •   OSSAS selects a random sample of callers to participate in the
       survey from the list of eligible calls.
   •   OSSAS sends an electronic file with the selected customers’
       information to the contractor.
   •   The contractor administers the survey.
   •   The contractor compiles survey responses and sends them
       electronically to OSSAS.
   •   OSSAS applies survey weights to the sample data and calculates
       the final survey result.
   •   OSSAS analyzes the final results.
   •   OSSAS writes and publishes a report on customer satisfaction and
       the survey.
   •   OSSAS distributes the report throughout SSA.
   •   OSSAS analyzes the survey results for the Government
       Performance and Results Act (GPRA) performance indicator.
   •   OSSAS combines the results from surveys and weights them by the
       customer universe.
   •   OSSAS reports customer satisfaction for the GPRA performance
       indicator to Office of Strategic Management (OSM).
   •   OSM publishes the GPRA results.




Performance Indicator Audit: Overall Services Rating (A-15-05-15118)        C-2
                                                              Customer Service Survey
                                                                    FO Caller


                          OSSAS selects                   OTSO arranges                                                 Contractor               Contractor sends
  Annual survey          FO to participate in            for installation of                                         downloads and               electronic files of      OSSAS extracts
                                                                                       Customer calls FO
    selection                  survey                    FO Caller ID and                                           extracts Caller ID              all callers to         customer data
                                                         other equipment                                               information                     OSSAS




                                                          OSSAS sends the
                           OSSAS selects a                                                                            Contractor compiles                OSSAS applies
  OSSAS selects                                           electronic sample                Contractor                                                                        OSSAS calculates
                           sample of eligible                                                                        responses and sends                 weights to the
 eligible FO callers                                          file to the               administers survey                                                                    the final survey
                              FO callers                                                                                electronic file to                sample data
                                                              contractor                                                                                                            result
                                                                                                                            OSSAS




                                                OSSAS writes and
                         Survey report           publishes report
                                                   on survey                   OSSAS distributes
                                                                                                             Complete survey
                                                                                   report

 OSSAS analyzes
    results

                       GPRA performance          OSSAS combines
                                                                                OSSAS reports
                          indicator             results from surveys
                                                                                  customer                   OSM publishes                 Performance
                                                    weighted by
                                                                                satisfaction to              GPRA results                indicator results
                                                 customer universe
                                                                                     OSM




Performance Indicator Audit: Overall Services Rating (A-15-05-15118)                                                                                                                       C-3
Customer Service Survey – FO Caller:

   •   OSSAS selects the Field Offices (FO) to participate in the survey.
   •   Office of Telecommunications and Systems Operations (OTSO)
       arranges for the installation of a Caller ID and other equipment in
       the selected FOs.
   •   Customers call the FO.
   •   The telephone contractor downloads and extracts customer
       information from the Caller ID system.
   •   The contractor sends an electronic file of all the callers to OSSAS.
   •   OSSAS extracts the data from the electronic file.
   •   OSSAS selects the eligible FO callers.
   •   OSSAS selects a sample of eligible FO callers to participate in the
       survey.
   •   OSSAS sends an electronic file with the selected customers’
       information to the contractor.
   •   The contractor administers the survey.
   •   The contractor compiles survey responses and sends them
       electronically to OSSAS.
   •   OSSAS applies survey weights to the sample data and calculates
       the final survey result.
   •   OSSAS analyzes the final results.
   •   OSSAS writes and publishes a report on customer satisfaction and
       the survey.
   •   OSSAS distributes the report throughout SSA.
   •   OSSAS analyzes the survey results for the GPRA performance
       indicator.
   •   OSSAS combines the results from the surveys and weights them by
       the customer universe.
   •   OSSAS reports customer satisfaction for the GPRA performance
       indicator to OSM.
   •   OSM publishes the GPRA results.




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)           C-4
                                                        Customer Service Survey
                                                             Office Visitor



                         OSSAS selects                                                              FO enters                                       OSSAS selects random
                          OSSAS selects                                                                                  FO or HO sends              OSSASofselects   random
                        random sample of       OSSAS notifies                                        customer                                       sample      customers   to
  Annual survey           random sample                              Customer visits                                     electronic list of           sample of customers
                          52 FOs and 13         FO or HO of                                       information in                                     participate in mailedto
    selection              of 52 FOs and                               FO or HO                                           customers to                 participate in mailed
                                Hos              selection                                     Access database                                               survey
                               13 HOs                                                                                        OSSAS                             survey
                                                                                               or tracking system




OSSAS electronically                                                     OSSAS enters the
                                                                                                       OSSAS reviews             OSSAS applies
sends the customer          Contractor              Customer mails            customer                                                                     OSSAS calculates
                                                                                                       information for           weights to the
 list and survey to a    administers survey        survey to OSSAS        information into                                                                  the final survey
                                                                                                         completion               sample data
       contractor                                                              Blaise                                                                             result




                                              OSSAS writes and
                            Survey report      publishes report              OSSAS distributes
                                                 on survey                                                          Survey complete
                                                                                 report
 OSSAS analyzes
    results



                           GPRA performance     OSSAS combines
                                                                             OSSAS reports
                               indicator           results from
                                                                               customer                         OSM publishes                   Performance
                                                surveys weighted
                                                                             satisfaction to                    GPRA results                  Indicator results
                                                  by customer
                                                                                  OSM
                                                     universe




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                                                                                       C-5
Customer Service Survey – Office Visitor:

   •   OSSAS selects a random sample of 52 FOs and 13 Hearing Offices (HO)
       to participate in the survey.
   •   OSSAS notifies the FO and HO of their selection to participate in the
       survey.
   •   The customer visits the FO or HO.
   •   The FO or HO enters the customer’s information into the Access data
       base or other tracking system when the customer checks in at the
       reception desk.
   •   The FO or HO sends the electronic list of customers and their information
       to OSSAS.
   •   OSSAS selects a random sample of customers to participate in the mailed
       survey.
   •   OSSAS electronically sends the names and addresses of selected
       customers to the contractor.
   •   The contractor administers the survey via mail.
   •   The customer returns the survey to OSSAS after completion.
   •   OSSAS enters the survey responses into Blaise.
   •   OSSAS reviews the information entered into Blaise for completion.
   •   OSSAS applies survey weights to the sample data and calculates the final
       survey result.
   •   OSSAS analyzes the final results.
   •   OSSAS writes and publishes a report on customer satisfaction and the
       survey.
   •   OSSAS distributes the report throughout SSA.
   •   OSSAS analyzes the survey results for the GPRA performance indicator.
   •   OSSAS combines the results from the surveys and weights them by the
       customer universe.
   •   OSSAS reports customer satisfaction for the GPRA performance indicator
       to OSM.
   •   OSM publishes the GPRA results.




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)         C-6
                                                                      Appendix D

Statistical Methodology
Methodology for the Sample Selection of Survey Participants


       800 Number Caller Survey

In FY 2004, the Office of Quality Assurance and Performance Assessment (OQA)
randomly selected a sample of 2,600 phone numbers of customers who called SSA’s
800 number to participate in the 800-Number Caller Survey. The sample was selected
on a biweekly basis from a population of all phone numbers of callers that reached the
800 number during the month of March. As the biweekly samples were drawn, OQA
excluded phone numbers sampled previously during the month, phone numbers that
reached the 800 number 100 times or more within a single day and calls made between
7pm and 7am local time. Calls from blocked numbers, businesses, pay phones, or
other locations where the customer is not identifiable were excluded during the interview
process. Service to SSA’s 800 Number callers is provided by agents in teleservice
centers and SPIKE units in SSA’s program service centers. The Field Offices (FO) and
Hearing Offices (HO) do not provide customer service to their customers via the
800-number, therefore OQA does not select FOs or HOs to participate in this survey.


       Field Office Caller Survey

Each year, OQA selects a sample of 110 offices to participate in its FO Telephone
Service Evaluation, a review in which calls are monitored from remote locations to
ensure accuracy. OQA selects the sample without replacement from the current
population of eligible FOs. Eligible FOs are those that have not been selected in
previous years.


From this initial sample of 110 FOs, OQA selects a sub-sample of offices to participate
in the FO Caller Survey. The sub-sample is a systematic sample from the parent
sample, after sorting the parent sample by telephone system, region, and area. Thus,
the sample of offices included for the FO Caller Survey has a distribution of telephone
system type, region, and area similar to the parent FO Telephone Service Evaluation

Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                  D-1
sample. In Fiscal Year (FY) 2004, the sub-sample of offices selected for the FO Caller
Survey consisted of 75 of the 110 offices from the FO Telephone Service Evaluation.
Because of phone system limitations, not all sub-sampled offices can be equipped to
enable identification of phone numbers for survey sample selection purposes; in FY
2004, 52 of the 75 offices initially sub-sampled could be equipped as necessary. From
the population of phone numbers identified in the sub-sampled offices, during the month
of April, on a biweekly basis, OQA selected a sample of 2,600 phone numbers of field
office callers to participate in the survey. OQA excluded from the sample all phone
numbers that appear to be invalid and phone numbers sampled in the previous biweekly
selections for the FY 2004 survey. In addition, during the interview process, calls from
blocked numbers, businesses, pay phones, or other locations where the customer is not
identifiable were excluded as were personal calls to field office employees.


The FO Caller Survey sample is drawn from all types of incoming lines an office has
available for public use; although all FOs handle the same types of business over the
phone, depending on the size of the office, some have one type of line and some have
two types available to receive incoming calls. The sample selection process takes into
account whether a particular office has one or two types of public lines available to
ensure that all incoming phone numbers have an opportunity for selection. An
approximately equal number of calls is sampled from each FO.


Phone numbers of callers from field offices that were not part of the sub-sample of
offices equipped for caller identification did not have an opportunity for selection.


          Office Visit Survey

The Office Visitor Survey is conducted at 52 FOs1 and 13 HOs once each year. For
each survey execution, the offices are selected without replacement from the current list
of eligible FOs or HOs. Eligible offices are those that have not been selected in
previous years.


While HOs are selected as a simple random sample, OQA selects FOs in a stratified
random sample by region. The number of FOs from each region is proportional to the
number of FOs in that region. The distribution of FOs sampled by region is:
1
    The 52 FOs used in the Office Visit Survey are not the same 52 FOs used in the Field Office Caller
Survey.
Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                                      D-2
                                 Region Name         FOs Sampled

                                 Boston                     3
                                 New York                   5
                                 Philadelphia               6
                                 Atlanta                    10
                                 Chicago                    9
                                 Dallas                     6
                                 Kansas City                 3
                                 Denver                     2
                                 San Francisco              6
                                 Seattle                    2

Each sampled office participates for 1 week of the 8-week survey period, which extends
from July to September. During their designated week, every day sampled offices
submit identifying information to OQA for each individual who visited. OQA selects a
random sample of 5,000 customers at the rate of 130 per day from the reported
population to participate in the Office Visitor Survey. Customer records without a valid
address and visitors already sampled for the current survey in a previous daily selection
were excluded from the sample selection. Office visitors of offices that were not part of
the initial field office and hearings office sample did not have an opportunity for
selection.


Calculation of the Survey Results

When determining the estimated percentage of Excellent (6) responses for overall
satisfaction, SSA summed the weights for the Excellent responses and divided by the
total weight of all valid responses.


                      ∑W j =1
                                       6j

               R=    6

                    ∑ ∑W
                    i =1        j =1
                                            ij



              where i is the value of the response (ranging from 1-6)
                    j is the number of the respondents and
                   Wij is the weight of the jth person whose response was i


Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                   D-3
When determining the estimated percentage of Excellent/Very Good/Good (6/5/4)
responses for overall satisfaction, SSA summed the weights for the Excellent/Very
Good/Good responses and divided by the total weight of all valid responses.

                             6

                           ∑ ∑W
                           i =4       j =1
                                              ij

               R=             6

                           ∑∑W
                             i =1 j =1
                                             ij



              where i is the value of the response (ranging from 1-6)
                    j is the number of the respondents and
                   Wij is the weight of the jth person whose response was i


Calculation of the Combined Overall Survey Result

SSA combined the results from the three surveys to derive one overall measure of
customer satisfaction. The percentage of Excellent responses for a survey (or
Excellent/Very Good/Good) was multiplied by its projected universe for each of the
universes: 800 Number Caller, FO Caller, and Office Visitors (FO Visitor and HO
Visitor). These numbers were then added together and divided by the total universe.

                3

               ∑ (R
               k =1
                             k*   Uk )
                       3

                    ∑Uk =1
                                  k


              where k represents either 800 Number Caller, FO Caller, or Office Visitors
                    (FO Visitor and HO Visitor).
                    Rk is the percentage of Excellent (or E/VG/G) responses in the kth
                    universe
                    Uk is the population total for the kth universe




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                   D-4
                                                                      Appendix E

   Agency Comments




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)
                                               SOCIAL SECURITY



MEMORANDUM

                                                                                 34314-24-1354
Date:      September 9, 2005                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Overall
           Service Rating" (A-15-05-15118)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: OVERALL SERVICE RATING”
(A-15-05-15118)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Improve documentation of policies and procedures. The documentation should be complete and
accurate to define all of the steps ultimately used to report performance results in the Performance and
Accountability Report (PAR). Estimates and calculations used to generate the survey results should be
clearly documented and supported to readily enable an independent assessment. SSA management
should annually update and take ownership of the documentation in compliance with OMB A-123
guidance.

Comment

We agree. Although documentation of the many processes involved in conducting each of the surveys
is available, we agree that it could be consolidated and presented in a more uniform manner. We will
review and compile the relevant material as workload demands permit. We have set September 2006
as the target date for completing this task.

Recommendation 2

Periodically assess the impact of performing the surveys over limited time periods, and consider
performing abbreviated surveys on smaller samples at other times during the year.

Comment

We disagree. Although we understand the intent of the recommendation, we have previously
considered the feasibility of conducting the surveys more frequently and have found that the benefit of
doing so is not sufficient to justify the time and expense it would take to administer the surveys. The
800-Number Caller Survey, for instance, began as a quarterly survey in the late 1980’s and later
became a semi-annual survey because fluctuations in results were too minimal to support the resource
expenditure. More recently, effective with fiscal year (FY) 2003, because of the consistency of results
over time and increasing resource constraints, the Agency decided to reduce the frequency even further
to once per year.

Recommendation 3
Consider the effect of nonresponse, through statistical tests between respondents and nonrespondents
for characteristics believed to be correlated with customer satisfaction. We recognize that SSA has
found it difficult to identify a comparable population to determine the effect of nonresponse, however,
efforts should continue to be made to examine the characteristics of the respondents and representation
of the population since segments of the population lacking coverage may be a result of nonresponse.
Model-based techniques using information gathered on respondents may be helpful to assess the
impact of nonresponse.

Comment

We agree that a nonresponder analysis would be an important and valuable undertaking to identify
potential bias. However, for the performance measure surveys, there is no meaningful data available
regarding characteristics of the sample population that could be correlated to customer satisfaction.
For example, the only information about the sample population in the caller surveys is the fact that

Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                           E-2
someone from the identified telephone number called SSA; even if additional characteristics were
collected on responders during the survey, they would shed no light on nonresponders since
comparable information about the sample is not available. Techniques that would rely on an external
data base for identification of population characteristics would have to represent a population
comparable to SSA callers; to our knowledge, such a data base does not exist. Also note that
subsampling nonresponders for additional follow-up contacts, another technique sometimes employed,
would be unlikely to yield results since the Agency’s contractor already makes 15 attempts over the
course of 3 weeks to reach nonresponders.

Recommendation 4

To minimize measurement errors, design each survey to be as similar as possible.

Comment

We agree. Our intent has always been to design the surveys to be as similar as possible, but we also
need to reflect the particulars of the individual’s experience that may vary depending on the mode of
contact. However, we have noted a couple of inconsistencies in the order of some of the questions that
we plan to remedy for the next round of surveys in FY 2006.

Recommendation 5

Implement controls to ensure the accuracy of the PAR’s data sources disclosed to support the
performance results.

Comment

We agree. The data source in the FY 2005 Annual Performance Plan was changed to reflect the
correct information. As a result, the FY 2005 PAR will disclose the proper data source.

Recommendation 6

Provide a direct linkage of the performance indicator to the Agency’s strategic goals and objectives.
SSA should expressly comply with criteria established by GPRA and OMB PART guidance, which
requires performance indicators be linked to the Agency’s relevant strategic goal and objective. If a
direct linkage can not be supported, the Agency should disclose the basis for selecting the indicator
and why it diverts from established criteria. SSA should further consider indicators which include
satisfaction from internet users and other technology investments that support the strategic objective.

Comment
We agree in part. Regarding OMB PART guidance, we believe this reference should be removed,
since the performance indicator was not a PART measure. Regarding the suggestion that we provide a
direct linkage of the performance indicator to the Agency's strategic goals and objectives we partially
agree. We believe that the linkage is apparent but that it could be enhanced. During the development
of the new Agency Strategic Plan for FY 2006 through FY 2011, the language for the "technology"
strategic objective has been expanded so that there will be a clear linkage between the performance
measures that relate to technology and the strategic objective. In the interim we are expanding the
language in the performance section of the FY 2005 PAR to make the linkage more apparent.

Recommendation 7

Provide a linkage to supplementary information in the PAR to increase the credibility of the survey
results by comparison to other Federal agencies, e.g. the American Consumer Satisfaction Index.

Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                            E-3
Comment

We agree. A reference to the American Consumer Satisfaction Index (ACSI) is already contained on
page 24 of the FY 2004 PAR. To enhance the readability of the document we try to avoid duplicating
information that is contained in other sections of the document. As we prepare the FY 2005 PAR we
will consider either providing a reference to the appropriate page number in the PAR where the ACSI
scores are presented or we will move this information to the
performance section that discusses this particular indicator.



[In addition to the information listed above, SSA also provided a technical comment which
has been addressed, where appropriate, in this report.]




Performance Indicator Audit: Overall Service Rating (A-15-05-15118)                       E-4
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
